.• a

No.

IN THE
SUPREME COURT OF THE UNITED STATES

YVONNE BOWERS SR.—Petitioner
v.
LYNX ASSET SERVICES, LLC—Respondent

PROOF OF SERVICE
I, Yvonne Bowers, declare that on this, July 2, 2021, served the PETITION FOR
WRIT OF CERTIFICATION on each party required to be served, by express mail
delivery and tracking number provided upon request. The names and addresses of
those served are as follows:
1) The Clerk Of The Supreme Court of The United States, 1 First Street, NE
Washington, D.C. 20543
2) Supreme Court Of New Jersey Clerks Office, R. J. Hughes Justice Complex,
P.O. Box 970, Trenton N.J. 08625
V

W“

3) Appellate Division Clerks Office, R.J. Hughes Justice Complex
P.O. Box 006, Trenton, N.J. 08625
4) Joshua G. Curtis Esq.
21 Main Street, Suite 210, Hackensack, New Jersey 07601

I declare under penalty of perjury that the foregoing statements are true and
correct.
Executed on July 2, 2021.

CERTIFICATION OF COMPLIANCY
I declare under penalty of perjury that 4911 word count statement is true and
correct as reported on the computer.
Executed on July 2, 2021
¥
Yvonne Bowers Sr., Pro Se

